72892               Federal Register / Vol. 67, No. 236 / Monday, December 9, 2002 / Proposed Rules

filed, the witness (and his or her              We do not accept comments by                      In 1998, Congress enacted section
attorney), upon proper identification,        facsimile (FAX) transmission. In                 6201 of the Omnibus Consolidated and
shall have the right to inspect the           commenting, please refer to file code            Emergency Supplemental
official transcript of the witness’ own       OIG–72–N. Comments received timely               Appropriations Act for Fiscal Year 1999,
testimony. If such a petition is denied       will be available for public inspection as       which authorized the Secretary to issue
by the General Counsel, he shall inform       they are received, generally beginning           regulations establishing ‘‘safe harbor’’
the petitioner of the right to inspect the    approximately 3 weeks after publication          exceptions under section 1128A(a)(5) of
transcript.                                   of a document, in Room 5541 of the               the Act for payment practices that
   (c) Good cause for denying a witness’      Office of Inspector General at 330               would otherwise run afoul of the
petition to procure a transcript of his or    Independence Avenue, SW.,                        statute. In addition, the Secretary is
her testimony may include, but shall not      Washington, DC, on Monday through                vested with the authority to issue
be limited to, the protection of: trade       Friday of each week from 8 a.m. to 4:30          advisory opinions providing legal and
secrets and confidential business             p.m.                                             regulatory guidance to providers under
information contained in the testimony,       FOR FURTHER INFORMATION CONTACT: Joel            this section.
security-sensitive operational and            Schaer, (202) 619–0089, OIG                         The OIG issued proposed regulations
vulnerability information, and the            Regulations Officer                              interpreting section 1128A(a)(5) of the
integrity of Board investigations.                                                             Act on March 25, 1998 (63 FR 14393)
                                              SUPPLEMENTARY INFORMATION:                       and final regulations on April 26, 2000
  Dated: December 2, 2002.
Christopher W. Warner,                        I. Background                                    (65 FR 24400). To alert the industry to
                                                                                               the scope of acceptable practices,
General Counsel.
                                The Health Insurance Portability and          promote compliance, and level the
[FR Doc. 02–30981 Filed 12–6–02; 8:45 am] 
   Accountability Act of 1996 (HIPAA),              competitive playing field, we have
BILLING CODE 6350–01–P                        Public Law 104–191, amended the                  issued further guidance on the statute in
                                              Social Security Act (the Act) to prohibit        a Special Advisory Bulletin on Offering
                                              providers from offering patients any             Gifts and Other Inducements to
DEPARTMENT OF HEALTH AND                      inducement to order or receive                   Beneficiaries (67 FR 55855; August 30,
HUMAN SERVICES                                Medicare or Medicaid reimbursable                2002). In the Bulletin, we indicated our
                                              items or services from a particular              intent to solicit public comments on the
Office of Inspector General                   provider, practitioner, or supplier.             possible regulatory exceptions to the
                                              Specifically, section 231(h) of HIPAA            statute.
42 CFR Part 1001                              established a new provision, section
                                              1128A(a)(5) of the Act, to provide for           II. Solicitation of Comments and
Solicitation of Public Comments on            the imposition of a CMP against any              Suggestions for Additional Exceptions
Exceptions Under Section 1128A(a)(5)          person who:                                         The OIG invites comments and
of the Social Security Act                                                                     suggestions for new regulatory
                                                Offers or transfers remuneration to any
AGENCY:  Office of Inspector General          individual eligible for benefits under           exceptions to section 1128A(a)(5) of the
(OIG), HHS.                                   [Medicare or Medicaid] that such person          Act. In particular, we are seeking
ACTION: Notice of intent to develop           knows or should know is likely to influence      comments and suggestions on possible
regulations.                                  such individual to order or receive from a       exceptions for complimentary local
                                              particular provider, practitioner, or supplier   transportation; remuneration to induce
SUMMARY: The OIG is soliciting public         any item or service for which payment may        participation in clinical trials; and
comments on the possible development          be made, in whole or in part, under
                                              [Medicare or Medicaid].
                                                                                               inducements of low value. We also
of exceptions under section 1128A(a)(5)                                                        welcome comments on other possible
of the Social Security Act (the Act), the        Section 231(h) of HIPAA also created          exceptions to section 1128A(a)(5).
civil money penalty (CMP) prohibition         a new section 1128A(i)(6) of the Act to          Comments that include detailed
on offering inducements to Medicare           define ‘‘remuneration’’ for purposes of          descriptions of relevant industry
and Medicaid beneficiaries to influence       section 1128A(a)(5) of the Act. This             business practices, address the legal and
their selection of a provider,                section defines ‘‘remuneration,’’ in             policy concerns raised by the
practitioner, or supplier. In particular,     relevant part, as ‘‘transfers of items or        application of section 1128A(a)(5) to
the OIG is interested in comments on          services for free or for other than fair         particular business practices, and offer
possible exceptions for complimentary         market value.’’ Remuneration does not            specific suggestions for applicable
local transportation, inducements             include certain enumerated practices,            criteria that might apply under a
related to clinical trials, and               including waivers of coinsurance and             regulatory exception are particularly
inducements of nominal value. The OIG         deductible amounts if the waiver is not          useful.
welcomes suggestions for other                advertised; not routinely offered; and
exceptions under section 1128A(a)(5) of       made following an individualized good            A. Criteria for Establishing Exceptions
the Act, as well.                             faith assessment of financial need or              In giving the OIG authority to create
DATES: To assure consideration, public        after the failure of reasonable collection       additional regulatory exceptions to—
comments must be delivered to the             efforts. Other statutory exceptions              and issue advisory opinions on—section
address provided below by no later than       include properly disclosed copayment             1128A(a)(5) of the Act, Congress
5 p.m. on February 7, 2003.                   differentials in health plans; incentives        provided no guidance on the criteria to
ADDRESSES: Please mail or deliver your        to promote the delivery of preventive            be applied. The absence of criteria is
written comments to the following             health care services; any practice               especially problematic because any
address: Office of Inspector General,         permitted under a safe harbor to the             exception to the prohibition creates the
Department of Health and Human                federal anti-kickback statute at 42 CFR          very harm prohibited (i.e., the
Services, Attention: OIG–72–N, Room           1001.952; and waivers of hospital                inducement of beneficiaries), resulting
5246, Cohen Building, 330                     outpatient copayment amounts in                  in an uneven competitive playing field.
Independence Avenue, SW.,                     excess of the minimum copayment                  Moreover, any exception will result in
Washington, DC 20201.                         amounts.                                         a valuable benefit to Medicare and
                  Federal Register / Vol. 67, No. 236 / Monday, December 9, 2002 / Proposed Rules                              72893

Medicaid beneficiaries. In the absence        services, or safety or treatment               including the various fraud and abuse
of statutory guidance, attempting to          compliance?                                    authorities. In extending coverage to
distinguish among types of benefits or           • Type of provider offering the             certain clinical trials, CMS intended to
categories of beneficiaries necessarily       transportation. Should the rules be            remove impediments to Medicare
results in arbitrary standards. In these      different depending on the type of             beneficiaries who want to enroll in
circumstances, the OIG has determined         provider or supplier offering the              trials, but not to grant favored status to
to exercise its regulatory authority          transportation services? Free                  clinical trials. This distinction is
cautiously by limiting exceptions to          transportation services offered by             important, because many clinical trials
areas in which Congress has indicated a       individuals or small groups of                 involve unproven alternatives to
desire for flexibility in the provision       providers, including physicians, or by         existing effective treatments.
remuneration to beneficiaries or where        freestanding clinics have been subject to         Because we are concerned that section
the provision of such remuneration            greater scrutiny. Historically, for            1128A(a)(5) not unduly impede valuable
serves a governmental interest.               example, unscrupulous providers and            clinical trials, we are soliciting
                                              clinics have offered free transportation       comments and suggestions on how to
B. Specific Areas of Interest                 in conjunction with Medicare and               apply section 1128A(a)(5) to
1. Complimentary Local Transportation         Medicaid frauds.                               inducements to participate in bona fide
                                                 • Destination. Should a provider be         clinical trials. Issues of particular
   In enacting section 1128A(a)(5) of the     permitted to furnish transportation to         interest to the OIG include:
Act, Congress intended that the statute       other health care providers or only to its        • Threshold level of Medicare
not preclude the provision of                 own premises for appointments for its          reimbursement. In many clinical trials,
complimentary local transportation of         own services? Some hospitals                   the volume and value of covered
nominal value (H.R. Conf. Rep. No. 104–       apparently provide free transportation         Medicare services provided to enrollees
191 at 255 (1996)). We have interpreted       to patients for private office visits with     is likely to be significant, and trial
nominal value to mean no more than            local physicians or other professionals;       sponsors may have a financial incentive
$10 per item or service or $50 in the         others limit transportation service to         to offer inducements to Medicare
aggregate. (See 65 FR 24411; April 6,         practitioners with hospital staff              beneficiaries to enroll. For example,
2000.) We are concerned that this             privileges. In addition, many hospitals        hospitalization triggers a substantial
interpretation may be overly restrictive      and physician practices are co-located         Medicare payment. However, it is
in the context of complimentary local         on a single campus. What safeguards            possible that some clinical trials may
transportation. Accordingly, we seek          might be included to protect against           involve only a small volume or value of
public input on the following issues as       abuse if transportation is offered to the      Medicare covered services. Should a
they relate to a possible exception for       premises of other providers (e.g., free        possible exception turn on the volume
complimentary transportation:                 transportation of patients as a financial      or value of Medicare services involved?
   • Forms of transportation. What            benefit to other providers)? What about        If so, what would be the appropriate
forms of transportation should be             transportation among entities affiliated       threshold level?
considered in developing an exception         through health systems? What about                • Sponsorship of studies. One issue
and how should various forms of               transportation for reasons other than          in crafting an exception for inducements
transportation be treated? We believe         medical appointments?                          associated with clinical trials would be
that luxury transportation (e.g.,                • Marketing and advertising. What           defining the universe of trials that
limousines), as well as certain               are the practical and policy                   would be covered by the exception. We
specialized transportation (e.g.,             considerations associated with allowing        believe covered trials should have a
ambulances) should not be covered in          marketing or advertising of                    clear potential public benefit. The scope
an exception. Are there other forms of        complimentary transportation services?         of ‘‘deemed’’ trials under the NCD is
transportation that should be excluded        What would constitute reasonable limits        overly broad for purposes of a possible
                                              on promotional activities?                     exception to section 1128A(a)(5) of the
(e.g., handicapped-accessible vans,
taxis, public transportation)?                   • Other criteria. Are there other           Act. We are interested in comments
                                              safeguards, limitations, or conditions         regarding the scope of covered trials and
   • Area in which transportation is          that should apply in any exception for         the criteria that might apply to
offered. Should the complimentary             complimentary transportation?                  distinguish those with potential public
transportation service be limited to a                                                       benefit from those with solely or chiefly
provider’s primary service area? If so,       2. Clinical Trials                             commercial value. We are also
how should a service area be defined?            Historically, sponsors of clinical trials   concerned that, as noted in several OIG
Should there be a different rule for rural    have offered various inducements to            studies, some trial sponsors provide
or underserved areas or patients?             patients to enroll in their trials. Because    investigators and other persons in
Should complimentary transportation           Medicare did not cover medical services        positions to identify and influence
be permitted to the nearest facility even     incident to most clinical trials, these        potential enrollees with substantial
if the patient resides outside the            inducements did not trigger scrutiny           monetary payments. (See, for example,
primary service area?                         under the various federal program fraud        the OIG report issued in June 2000,
   • Eligibility for transportation.          and abuse sanctions. However, in 2000,         entitled ‘‘Recruiting Human Subjects:
Should providers be required to offer         the Centers for Medicare and Medicaid          Pressures in Industry-Sponsored
the transportation services to all            Services (CMS) issued a national               Clinical Research’’ (OEI–01–97–00195)).
patients? What other kinds of eligibility     coverage determination (NCD) providing            • Type or amount of inducements.
requirements might be permitted?              for coverage for physician, hospital, and      We are interested in information
Certain eligibility criteria, such as         other services incidental to certain           regarding the types of beneficiary
diagnosis or insurance coverage, would        clinical trials (‘‘Medicare Coverage           inducements that might be offered in
clearly raise significant issues. What        Routine Costs of Beneficiaries in              connection with clinical trials (e.g.,
about other eligibility criteria, such as a   Clinical Trials’’; September 19, 2000).        waivers of copayments, provision of
showing of transportation or financial        Under the NCD, all other requirements          otherwise uncovered services, drugs, or
need, chronic conditions, special             of the Medicare program apply,                 equipment). In the clinical trial context,
72894               Federal Register / Vol. 67, No. 236 / Monday, December 9, 2002 / Proposed Rules

what are the practical and policy             DEPARTMENT OF HEALTH AND                     or reward business reimbursable under
considerations associated with the            HUMAN SERVICES                               the Federal health care programs. The
various forms of inducements? Which                                                        offense is classified as a felony and is
kinds of inducements matter most to the       Office of Inspector General                  punishable by fines of up to $25,000
efficient and successful completion of a                                                   and imprisonment for up to 5 years. The
clinical trial? What might be a               42 CFR Part 1001                             OIG may also propose the imposition of
reasonable cap on the value of                                                             civil money penalties, in accordance
inducements offered to particular             Solicitation of New Safe Harbors and         with section 1128A(a)(7) of the Act (42
                                              Special Fraud Alerts                         U.S.C. 1320a–7a), or exclusions from the
patients?
                                                                                           Federal health care programs, in
   • Sources of benefits. The OIG is          AGENCY: Office of Inspector General
                                                                                           accordance with section 1128(b)(7) of
aware that, in some cases, free items or      (OIG), HHS.
                                                                                           the Act (42 U.S.C. 1320a–7(b)(7)).
services are offered to enrollees in a        ACTION: Notice of intent to develop
                                                                                             Since the statute on its face is so
clinical trial by parties other than the      regulations.                                 broad, concern has been expressed for
trial sponsor. For example, a                                                              many years that some relatively
                                              SUMMARY: In accordance with section
manufacturer might furnish patients                                                        innocuous commercial arrangements
                                              205 of the Health Insurance Portability
with free or discounted products used                                                      may be subject to criminal prosecution
                                              and Accountability Act (HIPAA) of
in the course of the trial (but not the                                                    or administrative sanction. In response
                                              1996, this annual notice solicits
products that are the subject of the          proposals and recommendations for            to the above concern, the Medicare and
clinical trials). These kinds of              developing new and modifying existing        Medicaid Patient and Program
arrangements raise concerns, as the           safe harbor provisions under the anti-       Protection Act of 1987, section 14 of
benefits may induce enrollees to              kickback statute (section 1128B(b) of the    Public Law 100–93, specifically
continue to use the manufacturer’s            Social Security Act), as well as             required the development and
products after completion of the trial.       developing new OIG Special Fraud             promulgation of regulations, the so-
                                              Alerts. In addition, this notice solicits    called ‘‘safe harbor’’ provisions,
3. Inducements of Low Value                                                                specifying various payment and
                                              public comments regarding the
   As noted above, Congress indicated         development of possible guidance             business practices which, although
an intent to permit items and services of     addressing certain credentialing             potentially capable of inducing referrals
‘‘nominal’’ value under section               practices.                                   of business reimbursable under the
                                                                                           Federal health care programs, would not
1128A(a)(5) of the Act. Consistent with       DATES: To assure consideration, public       be treated as criminal offenses under the
this intent, in the preamble to the final     comments must be delivered to the            anti-kickback statute and would not
regulations governing section                 address provided below by no later than      serve as a basis for administrative
1128A(a)(5), we indicated that items          5 p.m. on February 7, 2003.                  sanctions. The OIG safe harbor
and services of nominal value are not         ADDRESSES: Please mail or deliver your       provisions have been developed ‘‘to
prohibited by the statute and thus no         written comments to the following            limit the reach of the statute somewhat
exception would be necessary (65 FR           address: Office of Inspector General,        by permitting certain non-abusive
24410; April 6, 2000). We further             Department of Health and Human               arrangements, while encouraging
interpreted ‘‘nominal’’ value to mean         Services, Attention: OIG–71–N, Room          beneficial and innocuous arrangements’’
less the $10 per item and $50 in the          5246, Cohen Building, 330                    (56 FR 35952; July 29, 1991). Health
aggregate on an annual basis (65 FR           Independence Avenue, SW.,                    care providers and others may
24411; April 6, 2000).                        Washington, DC 20201.                        voluntarily seek to comply with these
   We invite comments on whether, for           We do not accept comments by               provisions so that they have the
the sake of clarity and bright-line           facsimile (FAX) transmission. In             assurance that their business practices
guidance, we should codify an                 commenting, please refer to file code        are not subject to any enforcement
exception for inducements of low value,       OIG–71–N. Comments received timely           action under the anti-kickback statute or
and, if so, what the value should be.         will be available for public inspection as   related administrative authorities. The
Should the exception include a per item       they are received, generally beginning       safe harbor provisions are codified at 42
or service limitation on value or should      approximately 3 weeks after publication      CFR 1001.952.
it look solely to value on an annual (or      of a document, in Room 5541 of the           B. OIG Special Fraud Alerts and Special
other) aggregate basis?                       Office of Inspector General at 330           Advisory Bulletins
                                              Independence Avenue, SW.,
4. Other Exceptions                           Washington, DC, on Monday through              The OIG has also periodically issued
                                              Friday of each week from 8 a.m. to 4:30      Special Fraud Alerts and Special
  The OIG welcomes suggestions for            p.m.                                         Advisory Bulletins to give continuing
other possible exceptions to section                                                       guidance to health care providers with
                                              FOR FURTHER INFORMATION CONTACT: Joel
1128A(a)(5) of the Act. As noted above,                                                    respect to practices the OIG finds
comments are particularly useful if they      Schaer, (202) 619–0089, OIG
                                                                                           potentially fraudulent or abusive. The
                                              Regulations Officer.
address the legal and policy concerns                                                      Special Fraud Alerts and Bulletins
raised by the application of section          SUPPLEMENTARY INFORMATION:                   encourage industry compliance by
1128A(a)(5) to particular business            I. Background                                giving providers guidance that can be
practices and offer specific suggestions                                                   applied to their own businesses. The
for applicable criteria.                      A. The OIG Safe Harbor Provisions            OIG Special Fraud Alerts and Bulletins
  Dated: November 19, 2002.                     Section 1128B(b) of the Social             are intended for extensive distribution
                                              Security Act (the Act) (42 U.S.C. 1320a–     directly to the health care provider
Janet Rehnquist,
                                              7b(b)) provides criminal penalties for       community, as well as those charged
Inspector General.
                           individuals or entities that knowingly       with administering the Federal health
[FR Doc. 02–31040 Filed 12–6–02; 8:45 am] 
   and willfully offer, pay, solicit, or        care programs. The OIG Special Fraud
BILLING CODE 4152–01–P                        receive remuneration in order to induce      Alerts and Bulletins are available on the
